                                                      U.S. Department of Justice

                                                     Michael J. Sullivan
                                                     United States Attorney
                                                     District of Massachusetts


Press Office: (617) 748-3139                          John Joseph Moakley United States Courthouse, Suite 9200
                                                      1 Courthouse Way
                                                      Boston, Massachusetts 02210




                                                      August 30, 2006

                                        PRESS RELEASE

                  FALSE CLAIMS SCHEME CHARGED ON BIG DIG CONTRACT

        Boston, MA. A Fairhaven man was charged today in federal court with submitting false
time and materials slips on a Big Dig contract. The scheme involved the systematic, fraudulent
billing of apprentice electricians at the higher rate of pay for journeymen, resulting in continuing
overpayments by the Central Artery/Tunnel project to the subcontractor.

       United States Attorney Michael J. Sullivan, Theodore L. Doherty III, Special Agent in
Charge of the Department of Transportation Inspector General’s Office in New England, and
Gordon S. Heddell, Inspector General for the U.S. Department of Labor/Office of Labor
Racketeering announced today that STEVEN M. BOWERS, age 54, of 6 Silver Shell Beach,
Fairhaven, MA, was charged in a multi-count Indictment with conspiracy to defraud the United
States with respect to claims, submitting false claims, conspiracy to commit fraud on a federal
highway project and submitting false statements with respect to work performed on a federal
highway project.

       Additionally, two former co-workers of Bowers at Mass. Electric Construction Company
(“MECC”), BRIAN DI RE, of Winchester, MA and RICHARD JOYCE, of Norwood, MA
have entered into plea agreements with the U.S. Attorney’s Office as a result of their roles in the
scheme. Both DI RE and JOYCE have agreed to plead guilty to an Information alleging one
count of conspiracy to submit false claims.

        The Indictment alleges that beginning in or about January 2003 through June of 2005,
BOWERS, the Senior Project Manager for MECC on the I-93 tunnel finishes contract, along
with DI RE, the Project Manager, and JOYCE, the General Foreman, engaged in a scheme of
over-billing the Central Artery/Tunnel Project by falsely categorizing apprentice electricians as
journeyman on work MECC performed. The work was performed on a time and materials basis,
which meant the contractor, MECC, was paid for the time spent by each employee, as opposed to
a fixed price for the work under contract. MECC was also paid 10% of its total time and
materials billings to cover overhead, plus an additional 10% of that total for a profit margin. The
scheme involved more than 500 instances of over-billing during the course of the conspiracy and
resulted in false claims for more than $80,000.

        United States Attorney Michael Sullivan said, "Today's indictment demonstrates our
commitment to intensively investigate the Big Dig and prosecute illegal conduct when we find it.
The submission of false claims to defraud the United States, as alleged in the indictment, is
unacceptable in any context. No amount of fraud or corruption will be tolerated. The Big Dig
Task Force, comprised of agents from the U.S. Department of Transportation, Massachusetts
State Police, U.S. Department of Labor and Federal Bureau of Investigation, will continue its
investigation and I would encourage anyone with relevant information to contact federal
authorities."

       If convicted on these charges, BOWERS faces up to ten years imprisonment, to be
followed by three years of supervised release, and a $250,000 fine.

       The case was investigated by the Department of Transportation, Inspector General’s
Office and the Department of Labor/Office of Labor Racketeering. It is being prosecuted by
Assistant U.S. Attorneys Fred M. Wyshak, Jr., Anthony E. Fuller and Jeffrey M. Cohen of
Sullivan’s Public Corruption Unit.

The details contained in the indictment are allegations. The defendant is presumed to be
innocent unless and until proven guilty beyond a reasonable doubt in a court of law.

Press Contact: Christina DiIorio-Sterling, (617) 748-3356
